A
^

JL

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

1 ^ m
The

'« U

' • I.

•

i

* itH j& ^ ^ .y

SUPREME COURT OF THE UNITED STATE
NO. : 19-1462

r ■

A-v; 2 0 2320
^eoftheclerk

Jacqueline Pidanick
vs.
Paul C. LaRosa, III AND Chris Sankowski

The United State Court Of Appeals
For The Fourth District

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

JACQ^f^J E PIDANICK
Pro Se
Friend to the Court
262 Old Bridge Dr.
Bluffton, South Carolina

29910
Jakkiepidanick@vahoo.com
Lawyer for the opposing party
Robin Jackson
3 Wesley Drive
P.O. Box 12279
Charleston, South Carolina 29407
October 15th 2020 (only fixed)

1

i

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The appellate asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
f.'

Appellate affidavit or declaration in support of this motion is attached hereto.

Thank you,
✓

Jacqueline Pidanick
262 Old Bridge Drive Bluffton, SC
29910

2

i

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

I, Jacqueline Pidanick, am the appellate in the above-entitled cases. In support of my
motion to proceed in forma pauperis, I state that because of my poverty I am unable to
pay the costs of this case or to give security therefor; and I believe I am entitled to
redress.

1. For both you and your spouse estimate the average amount of money received
from each of the following sources during the past 12 months. Adjust any amount
that was received weekly, biweekly, quarterly, semiannually, or annually to show
the monthly rate. Use gross amounts, that is, amounts before any deductions for
taxes or otherwise. Please note the Appellate is single and cares for a son with
autism/adhd and a little girl on own.
INCOME SOURCE
Average monthly amount over the past 12 months /

Amount expected

next month
1. Employment 42,000 (12months) / 3,800 (one month) I am self employed and
have tax return upon request.
2. Child support is 2,750 a month which is allowed for school, and sitters for work
hours outside 8 to 3 hours, cloths, food, care for my daughter.
3. Total income 6,550 a month

3

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

EMPLOYMENT History
The, Petitioner has been a trainer and nutritionist for 21 years and has worked for
herself during this time renting gyms to train clients in. Please note lack of full
work due to coronavirus.
4. I only have 780.00 roughly that is mine, in my account but need to pay the
mortgage with this too.
5. List the assets, and their values, which you own or your spouse owns, and
ordinary household furnishings.
A. Home Value 200,000 Mortgage is 179,000 roughly
B. Motor Vehicle #1 Year, make & model. ADVENTURE TOYOTA 2019 valued at
30,000 ((my last car quit and I had enough trade in (value) to place down on a
car).
6. State the persons who rely on you or your spouse for support, instead of names
A. JU , My Son , he is about to 9 and is special needs.
B. OM , My Daughter she is 6
8 Estimate the average monthly expenses of you and your family. (Rounded)
A. Mortgage is

$1,150

B. Utilities

$210

C. Repairs

900 new doors water leak in front door

D. Food

$400

E. Clothing $250
F. Nothing on dry cleaning
g. Medical and dental

$50

4

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

h. Transportation $100 for gas
I. Home insurance 250 a month roughly
Life insurance 400 a month roughly
Health insurance 300 a month roughly
Motor insurance 150 a month roughly
Taxes I do quarterly (these are on hold due to virus)
J. Installment payments.
Motor 600.00
Credit cards 150
Sitters 395 a week (I work at 6 am to about 5 each day) 1,580 a month

9. I do not expect major changes in my income. ( my income is decreasing again do to
COVID spike)
10. I am on a list to try to obtain help with this case and since this filing is above my
knowledge I will try to pay for some guidance, as always. This is on hold, lawyers wish
not to meet due to virus. I have been waiting for paper too I was only allowed 4 to 5
packs at a time.
11. Will again paid in donations in time totaling 300 (saving if virus decreases and
States open) for aid to be taught how to do the Writ Of Certiorari for the Supreme
Court and make corrects, I am signed up to receive .
I, Jacqueline works 12 hour days to make the bills and support my children after
facing fraud upon the court. To keep my daughter safe from a known 20 year abuser I
have done and filed all and hope I have make this last push to the Supreme Court.

5

MOTION TO LEAVE TO PROCEED IN FORMA PAUPERIS

Thank you ! Sincerely

f /Jacqueline Pidanick
262 Old bridge dr.
Bluffton SC

29910

I declare under penalty of perjury that the foregoing is true and correct.
Date: Oct 15th 2020
Jacqueline Pidarfick

6

